LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 13, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-1009: DAVID SHINN, DIRECTOR, ARIZONA DEPARTMENT OF CORRECTIONS,
REHABILITATION AND REENTRY V. DAVID MARTINEZ RAMIREZ
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Respondents, on September
13, 2021, I caused service to be made pursuant to Rule 29 on the following counsel for
the Petitioners:
PETITIONERS:
Lacey Stover Gard
Office of the Attorney General
400 West Congress Street
Bldg. S-315
Tucson, AZ 85701
520-628-6654
lacey.gard@azag.gov
This service was effected by depositing three copies of the Brief for Respondents
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 13th day of September 2021.

